> -■‘V

In The

Supreme Court of the United States
CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT,
an individual; PHU CAM NGUYEN, an individual;
CHRISTOPHER MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.
MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

On Petition for a Writ of Certiorari to the Ninth Circuit Court of Appeals

CERTIFICATE OF WORD COUNT

I, Cyrus Sanai, pursuant to Rule 33.1(h) of the Rules of this Court, do
certify that the accompanying Petition for Certiorari, which was prepared
using Century Schoolbook 12-point typeface, contains 8.762 words, excluding
the parts of the document that are exempted by Rule 33.1(d). This certificate
relies on the word-count function of the word-processing program
WORD:MAC 2011 used to prepare the document.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 21, 2021

